-a ar

w
No.

20-5025
IN THE

SUPREME COURT OF THE UNITED STATES

£PVt£ AM QS

— PETITIONER

(Your Name)
vs.

tommy bowsn

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

h^r Cout'f'of Apf idls

Ci'hcui])

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

833637

£^ife Ayr\o$
(Your Name)

Dq\q<i

fn.cn

(Address)

&A 3IOIZ.~OZ.76

&}'
y
(City, State, Zip Code)

M/A

(Phone Number)
*

*■

Vi I

QUESTION(S) PRESENTED
(Ground One): Is a criminal defendant, who is also a previously
convicted felon, denied a fair trial and the effective assistance of
counsel when defense counsel fails to request that the jurors be
charged on the affirmative defense of self-defense as it relates to a
convicted felon being in temporary possession of a firearm for the
purpose of defending himself from imminent peril of great bodily
harm and/or death?

(Ground Two): Is a criminal defendant denied a fair trial and the
effective assistance of counsel where defense counsel advises and
allows said defendant to plead guilty to the unlawful possession of
a firearm by a convicted felon prior to that defendant standing trial
on a felony murder charge which was predicated on the very same
unlawful possession of a firearm by a convicted felon charge that
the defendant pled guilty to?

** Of •

Vi ii

. V-

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the coyer page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

&

/X

vr
TABLE OF CONTENTS

1

OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

ft
7
Jt

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A

APPENDIX B

Pe-c'ir'ieh of U-S. tour} of
>f U-S. Pfsih i d
P^c\f\oy\ O

Cour4'

fts.beb'i' dA ^so.conun<Lhkd-\-[

i

APPENDIX C

APPENDIX D

£our4’

ihloft a

APPENDIX E

APPENDIX F

X

t

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES

* Plwfxuih, Sot
. .
V’ SiAiQj £*fl
. ., * ■
Bi4op v■v. UdH
ll, £0l
S'idh Jt<j
S11 $.£•
frol (ff/h. ,
H:ll v. Lotkldt-tj w U4. si (/ns)..
v< S'td'f1) 737
.t ,
Lmk V- Shhj 3?Z S-£
9?S(hp)
+

9

0

p

c

Sb*h v. S^nlt^s/f S-&-A

*

(fff\

0

*

et

* u

C

Yoti/ii v. 7.*4 677

mmt) -

STATUTES AND RULES

OTHER

*

X/

•»

e»

■40

*t

tO

9

*

s

8

r

f

«*

&&&*>«» e

9

&

<J>

Shk V,
-73% ££.!*■ SM/itfo
S'thlckUha
W WtthlhA0/]
• ii.;«U
*9&i * * »
U
jul
'Telle.'A v-IAhAr^ f// U-l £53 Q f7.t *. .*
0

*

Of

Sf

• • %,!!

*' * *

c

0

V#

»

, „. 110

v?

W

«#

e

*

. J, // ,

*
&

0

0

&

s*

>*

. /<?
- •//

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[V] is unpublished.
J
The opinion of the United States district court appears at Appendix
the petition and is

A to

B t„

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
M" is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

*-

JURISDICTION

For cases from federal courts:
The date on wh ich the United States Court of Appeals decided my case
3Q, 2-02.0
was
[Vf^No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: -----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including _
A
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix______
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

, >'
J

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

«

nsf

Shd\\

M chmin^l

'f'l'j-t* decUJ'-e.-c
/

cnhy ’J'kz- tijph'f' -f* k tbV*-

d XJ-'i s \ dn^e.

0■p

<L«P e-hJ'e.

3.

couhs*-l

te.

STATEMENT OF THE CASE

Petitioner was indicted by a Cobb County grand jury on November 19,
2009, for malice murder, felony murder based on aggravated assault, aggravated
assault, felony murder based on possession of a firearm by a convicted felon, and
possession of a firearm by a convicted felon. ■
Petitioner entered a guilty plea to the charge of possession of a firearm by a
convicted felon.

At a jury trial in May 2011,

Petitioner was found guilty of voluntary manslaughter as a lesser included offense
of malice murder, felony murder based on aggravated assault, aggravated assault,
and felony murder based on possession of a firearm by a convicted felon.
Petitioner was sentenced to life imprisonment for felony

t.

murder based on possession of a firearm by a convicted felon, and the remaining
convictions merged into that felony murder conviction.
On direct appeal, Petitioner enumerated as error that the trial court erred in
sentencing him to life imprisonment, because the plain language of the statute
defining voluntary manslaughter directs that the felony murder counts and other
offenses merge into voluntary manslaughter.

The

Supreme Court of Georgia found that this claim lacked merit and affirmed
Petitioner’s conviction and sentence on October 5, 2015. Amos v. State, 297 Ga.
892, 778 S.E.2d 203 (2015).
Petitioner was represented at trial by attorney Jimmy Berry, and on direct
appeal by attorney Mitch Durham.

Petitioner filed a state habeas corpus petition on October 13, 2016,
challenging this conviction, and raised two grounds,

An

evidentiary hearing was held on December 13, 2016; the state habeas court denied
relief in a final order entered on June 29,2017.

. Petitioner

filed an application for a certificate of probable cause to appeal, which the
S

Georgia Supreme Court denied on August 2, 2018.
Petitioner filed this federal petition on September 7, 2018, in which he
challenges the same Cobb County conviction.

5,

&

The United States Magistrate Judge filed a Final Report and
Recommendation on June 19, 2019, recommending that Petitioner be denied
federal habeas corpus relief. [Appendix C]. Petitioner immediately filed his
formal objections to the Magistrate’s Report and Recommendation.
Thereafter, on August 30, 2019, the U.S. District Court adopted the
Magistrate Judge’s Report and Recommendation. [Appendix B]. The U.S.
District Court declined to grant a certificate of appealability (COA) to the
petitioner. Thus, the petitioner timely pursued a COA in the United States
Court of Appeals for the Eleventh Circuit. That court, on March 30, 2020,
also denied a certificate of appealability to Petitioner. This petition for writ
of certiorari follows.

c.

REASONS FOR GRANTING THE PETITION

Because of the staggering and highly increasing number of convicted
felons returning to society from prison, there needs to be some clear legal
guidelines set by this Court, outlining the factual circumstances when a
convicted felon, who is not allowed a gun, can legally possess a firearm to
defend himself.

GROUND ONE. Denial of Effective Assistance of Counsel on Appeal.
.SUPPORTING LAW AND FACTS: Petitioner's appellate counsel rendered
ineffective assistance to Petitioner by failing to raise on motion for new trial,
and on appeal, the ineffectiveness of Petitioner's trial attorney relative to said
attorney's failure to request the following jury charge: "When a felon is in
imminent peiil of great bodily harm or reasonably believes himself to be in
such danger, and with preconceived design on his part a firearm is made
available to him, his temporary possession of that weapon for a period no
longer than that in which the necessity or apparent necessity to use it
continues does not violate the statutory' prohibition against possession of a
firearm by a convicted felon.'' Little v. State. 195 Ga App 110 39? S E ?d
896 (1990).
The aforesaid supplemental jury charge, which has been in existence and
recognized by the appellate courts of this State since 1990, is a correct
statement of the law and was adjusted to the evidence in Petitioner's case.
Not only was this supplemental jury charge fully applicable to Petitioner's
case, but it was absolutely necessary that such a charge be given to
Petitioner's jurors. Little v. State, 195 Ga. App. 130, 392 S.E.2d 896 (1990).

z

* *

Jury instructions are the lamp to guide the jury’s feet in its search for a legal
verdict of guilty or not guilty with respect to the criminal defendant being
tried. Bishop v. State, 271 Ga. 291, 519 S.E.2d 206 (1999). Absent the
aforesaid supplemental jury charge being given to Petitioner’s jury, the jury
had no alternative but to accept that there exists no legal justification for a
convicted felon, such as Petitioner, to ever be in possession of a firearm. Said
charge should have been given in conjunction with the general charge on
justification, which charge was given. (T. vol. Ill, p. 190) and (T. vol. IV, p.
93). The general charge on justification, standing alone, however, was totally
inadequate to protect Petitioner’s right to a fair trial, as the legal principle"
contained in the un-requested supplemental charge was not covered in the
court’s general charge on justification. Benham v. State, 277 Ga. 516, 591
S.E.2d 824 (2004). The general charge on justification is not a one-size-fitsall justification instruction. The un-requested supplemental charge would have
informed Petitioner’s jurors that the justification defense would be allowable
and lawful under a felony murder charge with the underlying offense of
Possession of a Firearm By a Convicted Felon. Little v. State, 195 Ga. App.
130, 392 S.E.2d 896 (1990). The general charge on justification given at
Petitioner’s trial did not inform the jury that the justification defense would be
allowable and lawful under a felony murder charge with the underlying
offense of Possession of a Firearm By a Convicted Felon.
As justification was Petitioner’s sole defense at trial, it is highly probable
that the jury would have reached a different verdict in this case had the jury
been charged thusly: “When a felon is in imminent peril of great bodily harm
or reasonably believes himself to be in such danger, and with preconceived
design on his part a firearm is made available to him, his temporary
possession of that weapon for a period no longer than that in which the
necessity or apparent necessity to use it continues does not violate the
statutory prohibition against possession of a firearm by a convicted felon.”
Little v. State, 195 Ga. App. 130, 392 S.E.2d 896 (1990). Only an
incompetent trial attorney would fail to request a supplemental jury charge
that is absolutely necessary in order for the jury to consider his client’s sole
defense. State v. Crapp, 317 Ga. App. 744, 732 S.E.2d 806 (2012); Ingram v.
State, 317 Ga. App. 606, 732 S.E.2d 456 (2012). As it stands, Petitioner’s
jury was given only the general charge on justification, a charge which did not
inform the jury that the petitioner’s justification defense (his sole defense)
would be allowable and lawful under a felony murder charge with the
underlying offense of Possession of a Firearm By a Convicted Felon. Little v.
State, 195 Ga. App. 130, 392 S.E.2d 896 (1990). The petitioner’s trial

8.

_r: -

attorney was. therefore, ineffective in not requesting the aforesaid
supplemental jury charge. Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052(1984).
No reasonably effective appellate attorney would have failed to assert the
above-described issue of trial counsel’s ineffectiveness on motion for new
trial and appeal. Sloan v. Sanders, 271 Ga. 299, 519 S.E.2d 219 (1999). Had
this ineffectiveness issue been so raised, there exists a reasonable probability
that the outcome of Petitioner’s appeal would have been different. This is so
because the evidence adduced against Petitioner at trial was not
overwhelming and, also, there was ample evidence presented by both the
prosecution and the defense which supported Petitioner’s sole defense of
justification. But for the absence of the aforesaid supplemental jury charge
being given to Petitioner’s jury, by virtue of the fact that trial counsel for
Petitioner failed to request the charge, it is highly probable that the jury would
have acquitted Petitioner of felony murder, as the jury would have been
informed that the justification defense is allowable and lawful under a felony
murder charge with the underlying offense of Possession of a Firearm By a
Convicted Felon. Little v. State, 195 Ga. App. 130, 392 S.E.2d 896 (1990).
Inexplicably, appellate counsel omitted this significant and obvious
ineffectiveness of trial counsel issue while pursuing issues which were clearly
and significantly weaker. Battles v. Chapman, 269 Ga. 702, 506 S.E.2d 838
(1998).
Petitioner has herein made out a Sixth Amendment ineffectiveness of
appellate counsel claim against attorney Mitch Durham for his failure to raise
on motion for new trial, and on appeal, the ineffectiveness of the petitioner’s
trial counsel relative to tr ial counsel’s failure to request that Petitioner’s jury'
be charged thusly: “When a felon is in imminent peril of great bodily harm or
reasonably believes himself to be in such danger, and with preconceived
design on his part a firearm is made available to him, his temporary
possession of that weapon for a period no longer than that in which the
necessity or apparent necessity to use it continues does not violate the
statutory prohibition against possession of a firearm by a convicted felon.”
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984).

GROUND TWO: Denial of Effective Assistance of Counsel on Appeal.
SUPPORTING LAW AND FACTS: Petitioner’s appellate counsel rendered
ineffective assistance to Petitioner by failing to raise on motion for new trial,
and on appeal, the ineffectiveness of Petitioner’s trial attorney relative to said
attorney’s advising and allowing Petitioner to plead guilty to unlawful
possession of a firearm by a convicted felon prior to Petitioner standing trial
on the charge of felony murder—a charge which was predicated on the very
same unlawful possession of a firearm by a convicted felon (count 5).
Petitioner stood trial for the offense of felony murder, and was
subsequently found guilty by a jury of same. The felony murder count (count
4) was predicated on the underlying felony of unlawful possession of a
firearm by a convicted felon (count 5). Before trial, however, Petitioner’s trial
attorney advised and allowed Petitioner to plead guilty to unlawful possession
of a firearm by a convicted felon (count 5). Petitioner was deprived of his
entire defense of justification when he pled guilty to count 5 of his
indictment, unlawful possession of a firearm by a convicted felon. Said trial
attorney should have known that by pleading guilty to count 5 of the
indictment, Petitioner was waiving any and all defenses, known and
unknown, to the offense of unlawful possession of a firearm by a convicted
felon (count 5). Tollett v. Henderson, 411 U.S. 258, 93 S.Ct. 1602 (1973).
Wherefore, the jury in its consideration of Petitioner’s felony murder count
(count 4), they had no alternative but to accept that Petitioner was m
UNLAWFUL possession of a firearm by a convicted felon (count 5).
Conversely, had the petitioner not pled guilty to count 5, the jury in its
consideration of Petitioner’s felony murder count (count 4), they would have
had the option of finding that Petitioner was in LAWFUL possession of a
firearm by a convicted felon (count 5); thus, authorizing and mandating
Petitioner’s acquittal on the felony murder count (count 4).
No reasonably effective appellate attorney would have failed to assert the
above issue of trial counsel’s ineffectiveness on motion for new trial and
appeal. Sloan v. Sanders, 271 Ga. 299, 519 S.E.2d 219 (1999). Had this
ineffectiveness issue been so raised, there exists a reasonable probability that
the outcome of Petitioner’s appeal would have been different. This is so
because, but for trial counsel’s ineffectiveness in advising and allowing
Petitioner to plead guilty to count 5 of his indictment, Petitioner would have
pleaded not guilty and insisted on having a jury trial. Hill v. Lockhart, 474
U.S. 52, 106 S.Ct. 366 (1985). In summation, trial counsel advised and
allowed Petitioner to plead guilty to count 5 of the indictment absent ever
informing Petitioner that by so pleading, Petitioner would be fully relieving

(0.

the State of its burden of proof with respect to count 4 of the indictment,
felony murder. In this regard, trial counsel ceased sewing in the capacity of
defense counsel for the petitioner and began, instead, sewing in the capacity
of the prosecution. Young v. Zant, 677 F.2d 792 (11th Cir. 1982). Inexplicably,
appellate counsel omitted this significant and obvious ineffectiveness of trial
counsel issue while pursuing issues which were clearly and significantly
weaker. Battles v. Chapman, 269 Ga. 702, 506 S.E.2d 838 (1998).
Petitioner has herein made out a Sixth Amendment ineffectiveness of
appellate counsel claim against attorney Mitch Durham for his failure to raise
on motion for new trial, and on appeal, the ineffectiveness of Petitioner’s trial
counsel relative to trial counsel’s advising and allowing Petitioner to plead
guilty to unlawful possession of a firearm by a convicted felon prior to the
petitioner standing trial on the charge of felony murder--a charge which was
predicated on the veiy same unlawful possession of a firearm by a convicted
felon (count 5). Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052
(1984).

//,

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

’tfunt' 2-^, 2-oZQ

